NO.20-7943
IN THE
SUPREME COURT OF THE UNITED STATES
TYQUEZ URSERY
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS
I, Caryll S. Alpert, counsel for petition, certify that the Reply to Brief in

Opposition to Petition for Writ of Certiorari in the above-captioned case contains
133 words, excluding the parts of the petition that are exempted by Rule 33.1(d).
July 16, 2021
s/ Caryll Alpert
CARYLL ALPERT (BPR #17021)
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
(615) 736-5047

